<html>
<title> - THE ROLE OF FOSSIL FUEL SUBSIDIES IN PREVENTING ACTION ON THE CLIMATE CRISIS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                         THE ROLE OF FOSSIL FUEL
                     SUBSIDIES IN PREVENTING ACTION
                          ON THE CLIMATE CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2021

                               __________

                           Serial No. 117-16

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov
                           oversight.house.gov
                             docs.house.gov                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-383 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                            
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     David Rapallo, Staff Director
       Katie Thomas, Staff Director, Subcommittee on Environment
                          Amy Stratton, Clerk
                  Mark Marin, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                      Subcommittee on Environment

                    Ro Khanna, California, Chairman
Jim Cooper, Tennessee                Ralph Norman, South Carolina, 
Alexandria Ocasio-Cortez, New York       Ranking Minority Member
Rashida Tlaib, Michigan              Paul A. Gosar, Arizona
Jimmy Gomez, California              Bob Gibbs, Ohio
Raja Krishnamoorthi, Illinois        Pat Fallon, Texas
Cori Bush, Missouri                  Yvette Herrell, New Mexico
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2021...................................     1

                               Witnesses

Joseph Aldy, Professor of the Practice of Public Policy, Harvard 
  University
Oral Statement...................................................     5
Peter Erickson, Climate Policy Program Director, Stockholm 
  Environmental Institute
Oral Statement...................................................     6
Tara Houska, Founder, Giniw Collective
Oral Statement...................................................     8
Jill Antares Hunkler, Seventh-Generation Ohio Valley Resident
Oral Statement...................................................    10
Greta Thunberg, Climate Activist
Oral Statement...................................................    11
Frank J. Macchiarola, Senior Vice President, Policy American 
  Petroleum Institute
Oral Statement...................................................    13

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              


  * Letter from Independent Petroleum Association of America; 
  submitted by Rep. Norman.

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

 
                        THE ROLE OF FOSSIL FUEL
                     SUBSIDIES IN PREVENTING ACTION
                         ON THE CLIMATE CRISIS

                              ----------                              


                        Thursday, April 22, 2021

                   House of Representatives
               Subcommittee on Environment,
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:17 a.m., 
via Webex, Hon. Ro Khanna (chairman of the subcommittee) 
presiding.
    Present: Representatives Khanna, Ocasio-Cortez, Tlaib, 
Gomez, Krishnamoorthi, Bush, Maloney (ex officio), Norman, 
Fallon, and Herrell.
    Mr. Khanna. All right. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
an opening statement.
    Good morning, everyone. Welcome to the first hearing of the 
117th Congress of the Environment Subcommittee. I want to 
recognize our ranking member, Ralph Northam, and our vice 
chair, Rashida Tlaib, and thank all of the members and 
witnesses for participating.
    This is a historic hearing. This is the first time that the 
U.S. Congress is examining a elimination of fossil fuel 
subsidies. These subsidies have been on our books for over a 
hundred years. They have been giveaways to the fossil fuel 
industry embedded in our Tax Code.
    Now, in 2009, the United States committed, with other G7 
countries, to eliminate those fossil fuel subsidies. We 
actually had self-review, peer review, where we submitted a 
report in 2016, acknowledging that these fossil fuel subsidies 
exist.
    So the argument that the fossil fuel subsidies don't exist 
is simply factually false. It's a lie. It's a 
misrepresentation. It's a contradiction of what our own U.S. 
Government has represented to the world.
    We need to be very specific about what these fossil fuel 
subsidies are, and today's hearing will make it clear that many 
in the environmental movement and in Congress stand absolutely 
committed that these subsidies must be eliminated in the next 
infrastructure package.
    And there are five specific ones that we will detail that 
must be eliminated, and we want to hear from our experts about 
why that's the case and what else can be done.
    Now, let's just get some basic facts on the table. In 2020, 
the fossil fuel industry spent over $250 million in political 
contributions and Federal lobbying. In return, the fossil fuel 
companies received over $30 billion in Federal subsidies in 
direct pandemic relief in 2020.
    And guess what? They received this relief, and they were 
still laying off workers. So the subsidies, the relief, are not 
going to actual fossil fuel workers. We stand with the workers. 
We stand with those who are job creators.
    What we don't want is people making $500-, $600,000, to 
lobby. What we don't is people making millions of dollars on 
taxpayer subsidies, and that's what is being eliminated. This 
is not going to hurt in any way the jobs. What it's going to do 
is stop letting taxpayer subsidies go to pay lobbyists and rich 
executives.
    The industry, of course, opposed the Waxman-Markey climate 
bill. They have denied the simple fact that fossil fuels are 
the largest contributor to climate change. Despite the ad 
campaign, everyone knows that fossil fuels create greenhouse 
gas emissions, and these fossil fuel subsidies are outdated and 
need to go.
    Oil Change International found this expenditure cost $2.3 
billion annually for just the tax deduction on intangible 
drilling costs. The tax deduction for the percentage depletion, 
which started in 1926, cost $1.3 billion annually. We need to 
make sure we start to eliminate these.
    We will hear testimony from Tara Houska and Jill Hunkler, 
both really inspirational people, about how fossil fuel 
production pollution has affected their communities, and that's 
the impact that it's having on real people. You know, Vice 
Chair Tlaib always makes it personal. I mean, this is actually 
leading to excessive pollution in communities, and they will 
testify about the impact it's having on them and their 
neighbors and their families.
    We will also hear testimony from Greta Thunberg, the world-
famous climate activist, about how ending fossil fuel subsidies 
are absolutely essential to the leadership in the world, that 
it matters that we have these fossil fuel subsidies eliminated 
in our infrastructure plan, not just for the United States, but 
Ms. Thunberg will tell us why it matters for the world.
    And we will hear testimony from Dr. Joe Aldy and Peter 
Erickson about fossil fuel subsidies not supporting energy 
independence or jobs in other ways that actually can support 
energy independence and jobs.
    The largest subsidies that must be eliminated include 
deduction for intangible drilling costs, the percentage 
depletion, the MLPs, corporate tax exemption for FuelMaster 
limited partnerships, the last-in/last-out accounting, and the 
dual capacity taxpayer credit. These are the five things we 
insist must be ended in this infrastructure bill.
    And, of course, I'm also proud to cosponsor the End 
Polluter Welfare Act with Senator Sanders and Representative 
Omar, that's even more comprehensive about all the fossil fuel 
subsidies. We're focused on the top five, but there are many 
more, and that's why I'm proud to be on that legislation.
    The bottom line, this hearing will expose what the fossil 
fuel subsidies are in our Tax Code, expose that they're out of 
date, make it clear that they must end, and make it clear that 
the environmental movement in the United States is absolutely 
committed to ending these in this infrastructure bill.
    With that, I want to now recognize our distinguished 
ranking member, Member Northam, for his opening statement.
    Mr. Norman. Thank you, Chairman Ro Khanna. It's Norman. 
I've been confused with Ralph Northam----
    Mr. Khanna. I apologize for that, sir.
    Mr. Norman. That's fine. No, Chairman Ro Khanna, I 
appreciate you having this meeting, this committee hearing, and 
I want to thank the witnesses for taking the time to appear 
before the subcommittee.
    I'd like to begin by acknowledging the amazing progress 
that the United States has made on climate change. We are 
leading the world in reducing emissions, having reduced more 
than the next 12 emissions-reducing countries combined. Because 
these reductions have come via innovation and market forces, 
energy costs have decreased nationwide.
    While it really wasn't reported by the media, the Trump 
administration made substantial progress to protect the 
environment. Combined air pollution emissions fell more than 
seven percent, while simultaneously growing the economy, 
particularly before the COVID-19 pandemic.
    My colleagues on the left have regrettably resorted to fear 
tactics to scare people into action regarding climate change. 
This is not healthy, nor is it productive.
    One survey of 30,000 people worldwide found that nearly all 
of the people surveyed believe climate change would make 
humanity extinct. Children have also been greatly impacted by 
the fear of climate change as well.
    The American Psychological Association stated that they 
were aware of reports that children are increasingly suffering 
from eco anxiety. I hope eventually that our committee can move 
past doomsday scenarios and headlines and focus on the energy 
policy steps we should be taking and what the cost and impacts 
are.
    Rejoining the Paris climate accords is not one of these 
policies, folks. Not only does this agreement fail to hold 
countries like China, which uses over 50 percent of the coal, 
it does not hold them accountable for the emissions output. It 
only exacerbates a double standard despite our contribution to 
the global economy and to the nationwide GDP.
    Unless China stops its continuing growth of emissions, any 
actions we take would be offset several times over by China. 
This does not sound like a good deal for American workers or 
American energy independence and puts our country at a distinct 
disadvantage with our global competitors. Nor has it seemed 
like there's any repercussions for them doing what they're 
doing to this Nation as well as the world.
    This week Democrats in Congress reintroduced the Green New 
Deal. It should actually be called the ``radical new doom'' 
because it is not really about climate change. Only six percent 
of it really goes toward any type of climate--6 to 9 percent--
any type of change in the climate.
    It's an effort by the far left to remake our economy and do 
away with affordable energy while destroying millions of jobs. 
Make no mistake, the Green New Deal is not an infrastructure 
plan.
    The Republican Study Committee has found that the Green New 
Deal could potentially result in a 286-percent increase in 
energy bills per household, and about 50 percent of the entire 
American economy would be under government control.
    As a former small business owner, those numbers are 
terrifying, they're staggering, and it goes against America's 
great tradition of a free-market system.
    As Republicans, we will continue to support responsible 
policies that work to solve our problems by promoting 
innovation, investing in clean and clear energy infrastructure.
    However, I do fear that a premature move away from fossil 
fuels, particularly for poor areas, means that they will 
continue to have little access to the type of cheap, reliable 
energy that enables economic growth and allows for the 
provisions of clean water and sanitation, widespread 
vaccination, and preventative child health services.
    I look forward to hearing from the Republican witness today 
from the American Petroleum Institute about the impact on jobs 
in his industry if the Green New Deal were to become a reality.
    I also look forward to learning about the impact proposals 
by Democrats that will have on the oil and gas industry if it 
is treated differently under the United States Tax Code.
    The United States is fortunate to have a copious clean 
energy natural resources. We must use those resources to 
advance American interests by continuing to lead the world in 
emission reductions, not back policies that increase our 
dependence on foreign countries who are hostile to American 
interests.
    Inexpensive, accessible energy has led to technological, 
medical, and other advances that have driven the American 
economy and increased the U.S. life expectancy.
    Thank you, again, Mr. Chairman, and thank you for today's 
witnesses. I yield back.
    Mr. Khanna. Thank you, Ranking Member Norman, and 
appreciate your being a partner in areas where we can 
collaborate and appreciate your participation.
    I now want to introduce our witnesses. Our first witness 
today is Dr. Joseph Aldy, who is a professor of the practice of 
public policy at the Harvard Kennedy School.
    Next, we will hear from Peter Erickson, who is the climate 
policy program director for the Stockholm Environment 
Initiative.
    Then we will hear from Tara Houska. Tara is the founder of 
the Giniw Collective.
    We will also hear from Jill Hunkler, who is a seventh-
generation resident of the Ohio River Valley.
    And then we will hear from Greta Thunberg, who is a world-
renowned climate activist.
    Finally, we will hear from Frank Macchiarola, who serves as 
a senior vice president of policy, economics, and regulatory 
affairs at the American Petroleum Institute.
    The witnesses will be unmuted so we can swear them in.
    Please raise your right hands. Do you swear or affirm that 
the testimony you're about to give is the truth, the whole 
truth, and nothing but the truth, so help you God?
    Let the record show that the witnesses all answered in the 
affirmative. Thank you.
    Without objection, your written statements will be made 
part of our official record. With that, Dr. Aldy, you are now 
recognized for your testimony.

    STATEMENT OF JOSEPH ALDY, PROFESSOR, HARVARD UNIVERSITY

    Mr. Aldy. Good morning, Chairman Khanna, Ranking Member 
Norman, and members of the Subcommittee on Environment. My name 
is Joe Aldy, and I'm a professor of the practice of public 
policy at the Harvard Kennedy School.
    I've worked on the issue of fossil fuel subsidies and 
climate policy more generally, as a former government official, 
in my research, and in my teaching. I'm grateful for the 
opportunity to share my insights today, especially as we have 
new leadership in the White House and new voices in Congress 
prepared to combat the climate crisis with the urgency that 
this challenge demands.
    The U.S. Government continues to subsidize the production 
of oil, gas, and coal through tax policy and energy policy. To 
enable an evaluation of these subsidies, I presented in my 
written testimony five policy principles that can inform our 
understanding of what constitutes good and effective energy and 
climate policy, and distinguish it from poor and ineffective 
policy. Let me briefly review these now.
    First, energy and climate policy should correct market 
failures. Well-functioning markets do not need government 
interventions. The markets that produce too much pollution, too 
little innovation, or too little competition merit policy 
intervention.
    Second, energy and climate policy should promote cost-
effectiveness. Cost-effective design ensures that the American 
taxpayer gets the biggest possible social return, such as 
improved public health from cleaner air, and fewer threats from 
a changing climate, for a given tax expenditure or policy cost.
    Third, energy and climate policy should contribute to 
fairness and justice. Fair policy should create a level playing 
field. A just policy should recognize the disproportionate 
historic burden of environmental pollution and infrastructure 
siting borne by low-income households and communities of color 
and should reduce such disparities.
    Fourth, energy and climate policy should enhance our 
international leadership. Over the past four years, the U.S. 
Government abdicated its leadership globally on many fronts, 
including on climate change.
    Actions the U.S. Government takes to combat climate change 
have the potential to amplify actions in other countries and 
thereby multiply the benefits of our own domestic policy.
    Finally, we should design an act-learn-act approach to 
energy and climate policy. We should design our policy to 
enable learning, to identify the priority risks to target, to 
assess what works and what does not, and to examine what 
experiences have important implications for broadening and 
deepening our climate change and energy policy program.
    We need to act quickly, but we also need to be smart about 
our actions. And integrating learning and flexibility in our 
policy increases the effectiveness of our response to climate 
change. In my written testimony, I show how fossil fuel 
subsidies fall short on each of these five principles.
    Fossil fuel subsidies represent a government failure. Let 
me repeat that. Fossil fuel subsidies represent a government 
failure. They are a form of spending paid for by the American 
taxpayer to businesses in an industry that has long been 
profitable with a negligible impact on production or 
employment.
    To the extent U.S. production subsidies increase 
hydrocarbon consumption, the adverse public health, climate 
change, and labor productivity losses from pollution, resulting 
from fossil fuel combustion, could exceed the market value of 
these fuels.
    These adverse public health and climate damages are 
disproportionately borne by low-income households and 
communities of color.
    I want to emphasize this. We aren't getting much of any 
increase in hydrocarbon production because of these subsidies. 
By one estimate, we may be spending billions of dollars of 
taxpayer moneys per year to increase output by 26,000 barrels 
per day. If an oil company spent that much money for such a 
small amount of production, it would go out of business. And if 
we're not increasing output, we're not creating many jobs.
    The continuation of U.S. fossil fuel production subsidies 
undermines our government's efforts to engage partners from 
across the world to combat climate change. The elimination of 
fossil fuel subsidies here and abroad is a key step in our 
response to the climate crisis. As President Biden hosts the 
Climate Leaders Summit, this is all the more important.
    We did energy policy a certain way in the 20th century. 
Some of these fossil fuel subsidies have been a part of the Tax 
Code for more than 100 years. But the times have changed. We 
are bearing the harms of a changing climate today.
    We have a rich array of fundamentally new energy 
technologies available to us today. We need a new energy policy 
for the 21st century that can combat the climate crisis and 
improve the well-being of people throughout our country and 
around the world.
    The first step toward a more effective, modern energy 
policy should be to eliminate fossil fuel subsidies.
    Thank you, Chairman Khanna.
    Mr. Khanna. Thank you very much.
    Now--thank you, mister--with that, if we could have Mr. 
Erickson, you're now recognized for your testimony.

 STATEMENT OF PETER ERICKSON, CLIMATE POLICY PROGRAM DIRECTOR, 
               STOCKHOLM ENVIRONMENTAL INSTITUTE

    Mr. Erickson. Thank you, Chairman Khanna and Ranking Member 
Norman, for this opportunity to testify today. My name is Peter 
Erickson, and I am a senior scientist at the U.S. Center of the 
Stockholm Environment Institute, a research affiliate of Tufts 
University.
    Today my testimony has three points. One, fossil fuel 
subsidies are an inefficient means of supporting economic 
activity. Two, they undermine efforts to deal with climate 
change. And, three, they work against improvements in public 
health.
    On the first point, the U.S. Government has subsidized 
fossil fuel production for more than a century, including by 
forgiving or delaying tax payments that are otherwise required. 
The intangible drilling cost provision and the percentage 
depletion allowance are examples of this.
    The ostensible rationale for these subsidies has been to 
promote increased production and jobs. However, the vast 
majority of the value of subsidies goes to new oil and gas 
wells that are already expected to be profitable and would be 
developed anyway.
    For example, my research has found that over 96 percent of 
subsidy value flows directly to excess profits over and above 
the profits required to satisfy minimum investment hurdles. 
Most of the value of these subsidies is, therefore, not 
contributing to jobs on the ground.
    Second, fossil fuel subsidies undermine efforts to deal 
with climate change. Subsidies can, at times, make production 
of fossil fuels higher than it would otherwise be. This happens 
when oil and gas prices are very low, and companies otherwise 
have little or no incentive to drill.
    These subsidy-driven increases in drilling, even though 
relatively small, still raise global greenhouse gas emissions, 
undercutting other hard-won gains on the climate crisis. 
Subsidies, therefore, work against the need to rapidly wind 
down emissions from burning oil, gas, and coal.
    Further, subsidies can have symbolic effects since their 
continued existence may be read by other nations as a sign that 
the U.S. is not taking its commitments to subsidy reform or to 
climate action as seriously as it should be.
    In 2016, with other G7 governments gathered in Japan, the 
U.S. committed to eliminate fossil fuel subsidies by 2025. By 
following through on this, the U.S. would encourage other 
countries to do the same, multiplying the benefits.
    Third, fossil fuel subsidies work against needed 
improvements in public health. Subsidies to fossil fuels also 
contribute indirectly to air and water pollution, creating 
added community health concerns.
    For example, researchers found that the cumulative health 
damages from the shale gas boom in Appalachia outweigh benefits 
from any new employment. Producing and burning fossil fuels 
creates air pollution that can lead to worsening asthma, 
adverse pregnancy and birth outcomes, and even premature death.
    Air pollution from oil and gas drilling can also exacerbate 
inequalities. In the Eagle Ford basin in Texas, oil producers 
routinely burn off large quantities of natural gas that they 
consider to be waste, releasing toxic and carcinogenic 
compounds more often in Hispanic neighborhoods than in non-
Hispanic ones.
    Opponents of fossil fuel subsidy reform have argued that 
special provisions in the Tax Code are not subsidies 
specifically because they have been there for so long. But 
that's wrong. Policies that provide financial benefits to 
companies at a cost to the public, whether provided through the 
Tax Code or otherwise, constitute just as much a subsidy as 
writing a check, if these financial benefits are not generally 
available to other industries.
    Not only do tax preferences meet that definition of 
subsidy, so do other policies that extend beyond the Tax Code. 
For example, governments often charge companies inadequate fees 
to cover the cost of retiring oil and gas wells. The result is 
a cleanup bill that now totals hundreds of billions of dollars 
and may well be paid by the public rather than the companies 
that created the pollution.
    In summary, subsidies to fossil fuel producers are an 
inefficient means of creating jobs, they hold back the low-
carbon energy transition, and they work against efforts to 
improve public health.
    Thank you to the committee for this important hearing.
    Mr. Khanna. Thank you, Mr. Erickson.
    Now we'll hear from Ms. Houska. You are now recognized for 
your testimony.

      STATEMENT OF TARA HOUSKA, FOUNDER, GINIW COLLECTIVE

    Ms. Houska. Boozhoo, and hello, Giniw. My name is Tara 
Houska. I'm an attorney organizer from Couchiching First Nation 
Anishinaabe on the border of Minnesota and Ontario. I'm the 
cofounder of Not Your Mascots and the founder of Giniw 
Collective. I spent six months out on the front lines, fighting 
Dakota Access Pipeline, which is still operating illegally 
right now, today, at this moment.
    And I'm also engaged in the movement to defund fossil fuels 
and a multiyear struggle against Enbridge's Line 3 in my own 
territory.
    So a really common perception of Native people is that 
we're people of the past, that we're the static footnote in 
history. But we were here before the arrival of the United 
States. We were here before Canada. And we are still here 
today.
    There is this long dispossession of genocide and removal, 
and then there's like nothing after that. People seem to think 
that we didn't keep progressing after the 1800's. But the 
reality is that we're just five percent of the population 
globally, indigenous people. And we hold 80 percent of its 
biodiversity.
    We're the last holders of the sacred places all over Mother 
Earth. Despite this, our voices are almost entirely absent from 
the table of solving climate crisis, despite the reality of 
what's actually happening.
    Our sovereignty is not absolute. It's often subject to the 
whims of judiciary or a confusing web of governmental 
authority, influenced by special interests.
    Solution beyond teaching the basics of life that we all 
need healthy air, water, soil, to live, that we can't drink 
money, no matter how you try to spin it, is the imperative that 
we stand together centering justice, equity, and to reconnect 
to the living world by being in community with our Mother.
    We know what a just transition should look like, and we 
have to find out what that looks like for everyone. Because 
water shortages are already happening all over the world. We 
have to protect communities that are at risk, like my own. We 
are the people who are impacted first and worst by climate 
crisis. Yet we are the people who often contribute the least to 
climate crisis.
    Native people have never lost our connection to the land 
and to the water. Many of us live in community with our Mother 
as a practice, not in theory.
    I always ask people to find out where their water comes 
from, where their food comes from, and to internalize what that 
actually means. People buy things and don't have a second 
thought about the hands and places that their purchases came 
from. They turn on their tap or buy a bottle of water and don't 
think about that journey from the Earth to their lips.
    Everything comes from somewhere. Every bit of life comes 
from the Earth, and everything is returned to the Earth, 
including human beings.
    So in my own territory, Enbridge's Line 3 is one of the 
dirtiest fossil fuel pipelines. It would be one of the largest 
tar sands oil pipelines in the world, carrying up to 915,000 
barrels a day of tar sands through our sacred wild rice beds, 
through our territory, to the shore of Lake Superior, through 
the Mississippi headwaters.
    It uses underhanded methods to achieve its project goals 
and plays loose and fast with safety and spill response plans. 
So First Nations, eight Tribal communities, environmental 
groups, communities across the Great Lakes region, have been 
fighting for over seven years to stop this corridor and to stop 
Line 3.
    We are suing in the courts. Three different Ojibwe Nations 
are suing. Minnesota's own Department of Commerce is suing for 
failure to justify the line via their oil forecast.
    And the people are fighting on the ground, literally 
chaining themselves to the machines. Over 250 people have been 
arrested at this point since December, arrested during the 
middle of a pandemic, climbing into pipelines, climbing into 
frozen tar sands lines, literally trying to fight for their 
lives, for their futures. It's mostly young people that are 
taking these actions.
    Line 3 is personal for me because it goes through my 
people's territory and endangers that which sits at the center 
of our migration story, which is wild rice. There are threats 
to the drinking water of millions. There's all these 
irrevocable harms of climate emissions and Line 3 being a 10 
percent expansion of the tar sands. But when it comes to the 
wild rice, it's a threat to our cultural survival. We are 
talking about cultural genocide yet again in the history of 
this Nation. Wild rice is at the center of our culture and our 
connection. It's the only place in the world that wild rice 
grows.
    Our traditional economies of harvesting somehow are 
expendable to the economy of extraction. We endured forced 
theft, removal, theft of lands, theft of culture, and now we 
endure that the histories want to eradicate what we have left.
    So I recognize that my words might appear idealistic, that 
I do not understand the way of the world, that it cannot change 
so readily or so easily. I wonder, though, if this committee 
and we, as people, believe that we have truly conquered the 
Earth, if we can actually live without water, if we are 
civilized when the cost is globalized destruction of our shared 
and only home.
    We are in rough shape as a species. I want to look upon the 
faces of my grandchildren and tell them I did everything I 
possibly could to give them a better world, that I didn't 
linger in words and incremental policy without substantive 
action as when the world burns and the seas rise. I hope that 
you do too, and I pray that we move forward together. Miigwech.
    Mr. Khanna. Thank you, Ms. Houska.
    Now, Ms. Hunkler, you are recognized for your testimony.

  STATEMENT OF JILL ANTARES HUNKLER, SEVENTH GENERATION OHIO 
                        VALLEY RESIDENT

    Ms. Hunkler. Thank you. It's an honor to have this 
opportunity to share the truth about fossil fuel extraction in 
Appalachia. I respect the members of this committee and 
appreciate your courageous leadership in service of the people.
    My intention is to share this truth. Continuing to 
subsidize the fossil fuel industry will not only perpetuate the 
climate crisis but the plastics pollution, environmental 
justice, and public health crises as well.
    I'm a fracking refugee. I was forced from my home at the 
headwaters of the historically pristine Captina Creek Watershed 
in Belmont County, Ohio, after being surrounded by oil and gas 
infrastructure and its associated pollution, including a 
compressor station, 78 fracking wells, an interstate, and 
gathering pipelines all within a 5-mile radius of my home. I 
lived in the hollow below with Slope Creek running through my 
yard.
    Air pollution from these facilities emanate volatile 
organic compounds, some of which are known carcinogens. They're 
heavier than air, and they hover in the hollows. I never 
imagined that my quiet country and healthy way of life would 
disappear. The negative health impacts we experienced were too 
much to bear.
    Belmont County is the most heavily fracked in the state 
with over 595 producing wells. Those of us living in these once 
peaceful hills are not only dealing with negative health 
impacts. We are also experiencing unsafe roadways due to 
industry traffic, air and noise pollution, public, spring, and 
well-water contamination, pipeline explosions and well pad 
fires, including one operated by a Norwegian oil company that 
contaminated a stream resulting in the death of 70,000 fish. 
Our water supplies are being depleted by industry withdrawals 
from our reservoirs, ponds, and streams.
    In 2018, a fracking well blowout in Belmont County caused 
the largest methane leak in U.S. history, forcing residents to 
evacuate their homes for weeks. And in another horrifying 
incident, a brine truck accident contaminated Barnesville's 
reservoir with radioactive materials.
    At the time of the spill, the Ohio Environmental Protection 
Agency water test results showed a spike in radium, a naturally 
occurring radioactive element that is brought to the surface in 
the fracking process.
    I witnessed a former oil field operations manager react in 
shock and anger to an illustration showing the transmission of 
radioactivity to industry workers in a 2016 report of the 
International Association of Oil and Gas Producers.
    The industry continues to tout misinformation about 
America's clean energy future when, in fact, it produces toxic, 
radioactive waste, destroys massive amounts of precious water 
for its singular use, and makes the region poorer rather than 
richer in the long run.
    There are 240 Class 2 wastewater injection wells in Ohio; 
1.5 billion gallons of wastewater have been produced here. Now 
fracking wastewater has been permitted to be transported via 
barging on the Ohio River, threatening the drinking water 
supplies of 5 million people.
    In the year since the fracking boom began, Belmont and 
other eastern Ohio gas-producing counties haven't gained jobs. 
In fact, we have lost more than 6,500 jobs according to the 
data from the Bureau of Economic Analysis and Bureau of Labor 
Statistics.
    And the region's population has declined by more than 
13,000 people, according to research by the Ohio River Valley 
Institute, which has dispelled myths of lasting economic 
benefits and job creation in Appalachia fracking counties and 
corrected misconceptions that cutting subsidies for the fossil 
fuel industry is cutting jobs.
    I am living in a sacrifice zone due to the polluting and 
poorly regulated oil and gas industry, and now the 
petrochemical industry wants to invade and create even more 
toxic air pollution. The industry would require even more 
fracking in our region to provide feedstock to make plastics.
    The regulatory agencies are already failing to protect 
communities from air pollution from fracking, and now they have 
granted air permits to the PTT Global Chemical ethane cracker 
plant. If constructed, the Thai-owned facility would spew 
hundreds of tons of hazardous contaminants into the air each 
year.
    The cracker plant would draw ethane supplies from the 
proposed Mountaineer Natural Gas storage facility, which would 
develop salt caverns to store up to 3.5 million barrels of 
explosive, highly flammable NGLs next to and potentially 
underneath the Ohio River.
    Companies are securing Federal support for these 
petrochemical projects in the form of loan guarantees from the 
Department of Energy. This cannot be allowed to happen. We are 
asking this subcommittee and the Biden administration to halt 
the continued development of oil, gas, and petrochemical 
industries.
    We must embrace a better vision for Appalachia, creating 
renewable energy economies and regenerative agricultural 
development. A global commitment must be made to restore peace 
and harmony with nature and one another. We shall remain 
persistent and resistant to all that threatens our children's 
future. Thank you.
    Mr. Khanna. Thank you.
    Thank you, Ms. Hunkler, for your testimony.
    Now, I want to recognize Ms. Thunberg. You're now 
recognized for your testimony.

    STATEMENT OF GRETA THUNBERG, FOUNDER FRIDAYS FOR FUTURE

    Ms. Thunberg. Thank you, and first of all, thank you for 
inviting me and for holding this hearing.
    I don't represent any financial or political interests. I'm 
not a lobbyist, so I can't negotiate, make deals, or 
compromise. I have nothing to offer you, nor am I a scientist. 
All I can do is to urge you to listen to and act on the science 
and to use your common sense.
    And I'm not even going to explain why we need to make real 
drastic changes and dramatically lower our emissions in line 
with overall current, best available science.
    It is the year 2021. The fact that we are still having this 
discussion and, even more, that we are still subsidizing fossil 
fuels, directly or indirectly, using taxpayer money, is a 
disgrace. It is a clear proof that we have not understood the 
climate emergency at all.
    If you compare the current so-called climate policies to 
the overall current, best available science, you clearly see 
that there's a huge gap. The gap between what we are doing and 
what actually needs to be done in order to stay below the 1.5-
degree-Celsius target is widening by the second.
    And the simple fact, an uncomfortable fact, is that if we 
are to live up to our promises and commitments in the Paris 
Agreement, we have to end fossil fuel subsidies, stop new 
exploration and extraction, completely divest from fossil 
fuels, and keep the carbon in the ground.
    Now, especially the U.S., taking into account the fact that 
it is the biggest emitter in history, and just to be clear, 
that is not my opinion. It is what the science clearly shows.
    And yet this is just the very minimum amount of effort that 
is needed to start the rapid sustainable transition. And it may 
seem like we are asking for a lot, and you will, of course, say 
that we are naive. And that's fine, but at least we are not so 
naive that we believe things will be solved through countries 
and companies making vague, distant, insufficient targets 
without any real pressure from the media and the general 
public.
    So, either you do this, or you're going to have to start to 
explain to your children and the most affected people why you 
are surrendering on the 1.5-degree target, giving up without 
even trying.
    What I'm here to say is that, unlike you, my generation 
will not give up without a fight. And to be honest, I don't 
believe for a second that you will actually do this. The 
climate crisis doesn't exist in the public debate today. And 
since it doesn't really exist and the general level of 
awareness is so absurdly low, you will still get away with 
continuing to contribute to the destruction of present and 
future living conditions.
    And I know I'm not the one who is supposed to ask questions 
here, but there is something I really do wonder. How long do 
you honestly believe that people in power like you will get 
away with it? How long do you think you can continue to ignore 
the climate crisis, the global aspect of equity and historic 
emissions without being held accountable?
    You get away with it now, but sooner or later people are 
going to realize what you have been doing all this time. That's 
inevitable. You still have time to do the right thing and to 
save your legacies, but that window of time is not going to 
last for long.
    What happens then? We, the young people, are the ones who 
are going to write about you in the history books. We are the 
ones who get to decide how you will be remembered. So my advice 
for you is to choose wisely. Thank you.
    Mr. Khanna. Thank you, Ms. Thunberg.
    And now we have our fifth witness, Mr. Macchiarola. Mr. 
Macchiarola, you are now recognized for your testimony.

  STATEMENT OF FRANK J. MACCHIAROLA, SENIOR VICE PRESIDENT OF 
 POLICY, ECONOMICS AND REGULATORY AFFAIRS, AMERICAN PETROLEUM 
                           INSTITUTE

    Mr. Macchiarola. Thank you. Good morning, Chairman Khanna, 
Ranking Member Norman, and members of the subcommittee. Thank 
you for the opportunity to testify today. I want to speak with 
you this morning about the dual challenge of providing 
affordable and reliable energy to meet growing demand while 
reducing emissions and addressing the risks of climate change.
    American oil and gas workers meet this challenge every 
single day. Our industry supports more than 10 million jobs and 
seven percent of our Nation's economy. The average annual 
salary of oil and natural gas workers is approximately 
$108,000, nearly double the private sector average.
    In 2019, in the districts represented on this subcommittee 
alone, our industry supported approximately 325,000 jobs, 
directly employing 75,000 people. These are the people helping 
to deliver affordable energy to our homes and businesses and 
energy security to our Nation.
    Over the next two years, as countries around the world 
emerge from the pandemic, global GDP is projected to grow at 
its highest rate in nearly a half a century. As economies 
expand and the world's population grows, the global consumption 
of oil and natural gas will also continue to increase.
    Even under IEA's sustainable development scenario, which 
outlines a major transformation of global energy systems and is 
fully aligned with the Paris Agreement, oil and natural gas are 
still projected to provide 46 percent of the world's energy in 
2040.
    The critical question for Congress is whether more of this 
energy will come from right here at home or from overseas.
    The answer to this question has profound implications for 
our Nation's future. We know why energy leadership for America 
is important to our economic strength and national security, 
but American energy leadership is also important to protecting 
the environment and addressing climate change.
    Our commitment to environmental protection is clear, as the 
United States is now the global leader in both energy 
production and CO2 emissions reductions. Over the past several 
years, the primary driver of emissions reductions has been the 
increased use of natural gas for power generation. With smart 
policies, we can build on this progress.
    Our industry is also working to reduce methane emissions 
from our operations. From 1990 to 2019, methane emissions from 
natural gas systems declined 16 percent while production 
increased by 90 percent, effectively a 55 percent decline in 
the rate of emissions.
    To build on this progress, API recently released our 
climate action framework, a series of public policies and 
industry initiatives that provide tangible solutions for 
policymakers, industry, and the public to help meet the 
challenge of climate change.
    As this committee examines tax and energy policy, I'd like 
to emphasize the importance of a Federal tax policy that 
promotes investment in the United States and ensures America's 
leadership role in the global economic recovery.
    As it applies to oil and natural gas industry, provisions 
covering natural resources take into account the need to 
recover the costs associated with various investments to 
support reinvestment back into the business. This includes 
deductions for the recovery of payments for expenses like 
equipment, labor, and wages.
    These cost-recovery mechanisms are not subsidies but rather 
common tools that allow businesses to expand, invest, and 
create jobs.
    Furthermore, unlike tax credits that reduce the tax 
obligation outright, these measures do not affect how much our 
industry pays in taxes but rather the timing of such payment. 
These investments made help businesses grow and ultimately 
provide significant revenues to the American taxpayer.
    Over the past decade, the U.S. Department of the Interior 
dispersed approximately $10 billion per year generated from 
energy production on Federal lands and waters, $12 billion in 
2019 alone.
    In addition, excise taxes placed on our products provide 
significant revenues for infrastructure projects. In 2019, 
Federal fuel taxes generated $36 billion for highways and 
bridges that help keep our Nation moving.
    It's essential we implement effective and achievable 
policies that allow us to continue to reduce emissions while 
supporting America's economy and energy security. The oil and 
natural gas industry stands ready to work with you to do just 
that.
    Thank you for the opportunity to testify, and I look 
forward to the committee questions. Thank you.
    Mr. Khanna. Thank you. Thank you, Mr. Macchiarola, for your 
testimony.
    And now we are going to proceed to the questioning. 
Everyone on the committee who wishes to ask questions will have 
five minutes, and I will begin. The chair now recognizes 
himself for five minutes of questioning.
    Let me say I was moved, Ms. Thunberg, with your very 
eloquent statement about how we will be judged in history and 
how you plan to write it. Do you think that the Biden 
administration must make repealing these five fossil fuel 
subsidies the first and highest priority in the next 
infrastructure bill?
    Ms. Thunberg. Yes. I mean, if you--I mean, you don't need 
me saying that this is, of course, should be one of the top 
priorities, but if you do ask for my opinion, then, yes, of 
course, if you--because if you look at the overall current, 
best available science, that is clearly--it shows that that is 
what is needed right now. So, yes, definitely.
    Mr. Khanna. And could you speak be a little bit, given your 
international perspective, about what message we would be 
sending in Congress if we passed an infrastructure bill and did 
not have the elimination of fossil fuel subsidies in there 
after we ran on that and after it's in the President's plan, 
and if let's say we did not have that? What message would that 
send to other countries?
    Ms. Thunberg. I guess it would send the message that you're 
not really taking it serious, that you are talking very much 
but not really taking action. I know that sounds very 
oversimplified, but that is what it all comes down to. We are 
all talking about these distant targets, and we are gonna act, 
and we have reduced our emissions and so on.
    But we can talk as much we want, as long as we don't take 
real bold action right now, reducing the emissions at the 
source, then it doesn't really mean anything. At least that's 
what I, as a young person, and from talking from an 
international perspective, that's the signal that you will be 
sending out.
    Mr. Khanna. Would it be fair to say it would be a gut-punch 
to young people in the environmental movement around the world 
if these fossil fuel subsidies aren't eliminated in this 
infrastructure bill?
    Ms. Thunberg. Yes. Pretty much. That's a good description.
    Mr. Khanna. Mr. Macchiarola, I listened very carefully to 
your statement because I was perplexed when you said that there 
was no special fossil fuel subsidy, as you've said in a number 
of your public statements. And I was trying to understand how--
you're under oath--how are you possibly saying that?
    And it seems to me I understand the loophole now that 
you're trying to invoke. You say they pay the taxes, but they--
this is just a matter of time. Can you explain to us what the 
standard tax accounting practices mean for depreciation? If 
there was not the intangible drilling deduction, how many years 
does the standard tax accounting allow for?
    Mr. Macchiarola. Sure. Chairman, I think, in reference to 
the IDC specifically, I think the way to think about this is in 
terms of the similar treatment that research and development 
gets in the Tax Code. What we're trying to do is incentivize 
reinvestment back into projects to be able to----
    Mr. Khanna. And I want to interrupt. What would the 
standard--just so we're on the same page, what would the 
standard tax accounting be--the standard tax accounting 
depreciation?
    Mr. Macchiarola. The current tax accounting appreciation is 
over a longer period of time----
    Mr. Khanna. Do you know what the standard tax accounting 
depreciation would be? Over how many years? I mean, it's a 
simple question. I mean, I assume you know the basics.
    Mr. Macchiarola. Congressman, Mr. Chairman, I think----
    Mr. Khanna. The answer is it's over seven years. And what 
the inner--intangible drilling deduction is. You may want to 
have people brief you next time before you come to Congress. 
It's a seven-year standard deduction. And what the intangible 
drilling does is for oil companies, they get to deduct expenses 
on the first year for seven years. Do you understand the 
concept of the present value of money?
    Mr. Macchiarola. I certainly do understand that, 
Congressman----
    Mr. Khanna. And just to be clear, the research and 
development tax credit and other tax credits can't be taken all 
at once. Every other industry--every other industry--has 
standard tax accounting at seven years. You say you're not for 
any special exemption. Would you be fine using standard 
accounting practices for every other industry for the oil and 
gas industry? Can you commit to that today?
    Mr. Macchiarola. I think the importance of this provision 
is to be able to reinvest into the next project----
    Mr. Khanna. Every other industry could reinvest, and they 
don't--they have seven years. Why can't----
    Mr. Macchiarola. It is similar treatment in the Tax Code to 
research and development----
    Mr. Khanna. It's not similar treatment. And if you could 
just answer this last question, then I'll give you the last 
word. Why is it that your industry doesn't get the standard 
seven years that every other industry, including the tech 
companies in my district--I'm very familiar with research and 
development tax credits. I'm all for it. Can you commit today 
that your industry should get the same--same--provision as 
every other industry? Why is it that the oil industry should 
only get one year to take all the depreciation in defiance of 
standard accounting principles?
    Mr. Macchiarola. First off, it's important to note where 
that savings goes. Eighty percent of the savings that you're 
talking about goes back into pay wages, to be able to move on 
to the next project, to be able to reinvest----
    Mr. Khanna. Can you just admit that you're fine for 
standard tax accounting?
    Mr. Macchiarola [continuing]. And grow business.
    Mr. Khanna. Are you fine to be subject to the same thing 
that the tech companies in my district are, or Wall Street is? 
Can you just say you're fine with standard tax accounting 
principles?
    Mr. Macchiarola. I think to take--Mr. Chairman, to take one 
provision of the Tax Code and say it should be applied in the 
same form and fashion to every business without looking at----
    Mr. Khanna. So you're saying----
    Mr. Macchiarola [continuing]. Without looking at the entire 
Tax Code--the purpose of the Tax Code is to provide revenues to 
meet government expenditures----
    Mr. Khanna. You said you were saying--you said you were 
saying----
    Mr. Macchiarola [continuing]. To be able to provide--to be 
able to provide----
    Mr. Khanna [continuing]. You said that you were being 
treated the exact same as every other industry. That's what you 
said under oath. That's what you said to the press. And I'm 
saying, right now, there's one provision of the Code--we can 
discuss the others--where you're not, where every other person 
gets seven years. You didn't know the seven years. That's 
standard accounting 101. Trust me, that's true.
    Now, you can deny the net present value of money. That 
would be like denying that the earth is round. Obviously, there 
is a benefit if you get to depreciate it all at once. Can you 
just, on a consensus, say that you commit to what you said, 
that you're fine being treated like every other industry with a 
seven-year deduction?
    Mr. Macchiarola. We are certainly fine being treated like 
every other industry.
    Mr. Khanna. OK.
    Mr. Macchiarola. There's no--there's no question about 
that. If you want to take the entire Tax Code and treat the oil 
and gas industry as every other industry, we're happy to do 
that.
    Mr. Khanna. Ranking Member Norman, my time has elapsed, so 
I recognize you for your questions.
    Mr. Norman. Thank you, Mr. Chairman.
    Ms. Thunberg, thank you for your involvement here today. I 
commend you for your willingness to testify and get involved 
with public policy.
    In the past, when you're talking about climate change, you 
have said, quote: ``I want you to panic. I want you to feel the 
fear I feel every day.''
    What particular study or scientific report did you read 
that made you come to this conclusion?
    Ms. Thunberg. Thank you for the question. First of all, let 
me just clear that, those are metaphors. In speeches, you often 
use metaphors. Of course, I don't mean literally that I want 
people to panic. So there was no scientific study that made me 
come to that conclusion.
    Mr. Norman. Oh, OK. So you didn't say that?
    Ms. Thunberg. I did. But it's a metaphor that you often use 
in speeches.
    Mr. Norman. Metaphor for what? I mean, how do you--what I'm 
asking, on panic, ``I want you to panic,'' what does that--tell 
me what you meant by that.
    Ms. Thunberg. By that, I mean that I want people to step 
out of their comfort zones, yes, and to not just see the 
climate crisis as a far, distant threat, but rather as 
something that is impacting people already today and people to 
step out of their comfort zones to start taking real action.
    Mr. Norman. OK. What in your opinion is, on the PPM, parts 
per million, what is acceptable, permissible, on CO2 emissions 
in your opinion? What actual amount do you think is 
permissible?
    Ms. Thunberg. Well, I mean, of course, there is no magic 
amount that says that this is an OK amount. The science doesn't 
really work that way. But, of course, we can say that it is the 
more--the higher the concentration of CO2 in the atmosphere is, 
the bigger the risks are going to be.
    So, I mean, you can't say that there is one amount that is 
acceptable and not. Of course, there is not one magic tipping 
point where everything is beyond saving and so on, but rather 
we should try to keep it as low as possible.
    Mr. Norman. OK. So you wouldn't name a particular number.
    What about China, India, the other countries where 
there's--in this--if this bill passes, there's no retribution 
against these countries that's going to offset anything we do 
here in America. What is your take on that?
    Ms. Thunberg. Well, if we just thought like that, it would 
be very convenient; wouldn't it? But rather we need to see the 
holistic perspective, how can we--if we take, for example, 
India as an example, how could we expect India to take action 
when the developed countries who have actually promised to lead 
the way won't do that? When--if we take into account the global 
aspect of equity, I mean, there are many, many people around 
the world who need to be able to raise their standard of 
living. And if we, who live in high-income countries, aren't 
able to take a few steps back in order to let other people 
raise their living standard, then, I mean, that doesn't--that 
just doesn't make any sense.
    And of course those countries definitely need to take their 
responsibility as well, and that's why we need global 
cooperation. And if countries won't take action, then there is 
no global cooperation. If the U.S., for example, which is the 
biggest emitter in history, won't take action, then how can we 
expect other countries to do that?
    So taking action ourselves is also a guarantee that other 
countries--I mean, it will be a snowball effect most likely. If 
one country does something, then other countries will follow. 
If no country does something, then no one will follow.
    Mr. Norman. OK. And so China as example, which is a 
Communist--they practice genocide on their people--they will 
watch America and then will just voluntarily reduce their 
emissions? Is that your thoughts?
    Ms. Thunberg. No. I mean, we should do, of course, 
everything we can to make sure that China takes their 
responsibility, but I mean, there is not really much--I mean, 
all I can do is to try to advocate for global change. All you 
can do is to take action and try to create a global pressure on 
China so that they will have to take action.
    As you say, we can't just go there and ask them to do it. 
That would be very nice, but, yes, we need to think 
realistically as well.
    Mr. Norman. Yes. There's nothing in the bill that puts any 
type pressure other than, I guess, showing the example. Thank 
you for your testimony.
    Mr. Macchiarola, can you address the direct employment in 
the United States that the Green New Deal would affect? We're 
all seeing the gas prices jump, you know, 70 cents or more. 
We're now dependent on foreign countries that particularly 
don't have our best interest. Can you discuss how this Green 
New Deal would affect energy costs, gas costs, and the many 
other minerals that they are prohibiting to be mined in other 
states?
    Mr. Macchiarola. Sure. Thank you for your question, 
Congressman Norman.
    I think it is first important to look at the job creation 
within the oil and gas industry. We support 10 million jobs in 
the U.S. economy, nearly seven percent of the U.S. economy. On 
this committee alone, 325,000 jobs supported by the industry, 
75,000 directly.
    And let's talk about what the tax increases that are being 
proposed would do.
    In 2017, as a result of reducing the corporate tax rate, we 
created, over a period of 19 straight reports, the lowest 
poverty rate in 60 years, since the government kept that 
statistic. We created jobs for 19 straight months with wage 
growth over that period of time prior to the pandemic.
    The reason we did that was 70 percent of the savings from 
the tax cuts went directly to wages. That's right into the 
American people's pockets.
    On energy, what has the result been on energy of the 
American energy revolution?
    Over the past decade, as increases in costs have gone up by 
double digits in health care, education, and food costs, energy 
costs have gone down by 15 percent.
    The tax proposals considered here would drive those costs 
up. That would mean real costs for consumers. That would mean 
jobs. It's essential that we not go in that direction.
    Thank you for your question, Congressman.
    Mr. Norman. OK.
    You would agree corporations don't pay taxes, people pay 
taxes, don't they?
    Mr. Macchiarola. People do pay taxes.
    Mr. Norman. And the fact that the depreciation schedule is 
different from industry to industry. The oil and gas industry 
is not like my industry, the real estate business. It's a 
different type of business. One size doesn't fit all. Would you 
agree?
    Mr. Macchiarola. One size does not fit all for all 
industries. That's right, Congressman.
    Mr. Khanna. Thank you, Member Norman. I want to give you 
some more time. Your time has been expired, but I want to be 
polite. So maybe just one or two more.
    Mr. Norman. That's fine, Chairman. I didn't realize. Thank 
you so much. Appreciate it.
    Mr. Khanna. Thank you.
    You can answer the question, the witness.
    Mr. Macchiarola. Sure. Thank you, Mr. Chairman.
    Thank you for the question, Ranking Member.
    I think what you try to do with a Tax Code is to provide 
revenue to meet government services. But you need to ensure a 
fair return for the taxpayer, but also U.S. competitiveness.
    We are in an increasingly globally interconnected world 
where competitiveness is essential. Some of the provisions that 
the chairman discussed would directly impact that 
competitiveness, particularly the double taxation on income 
earned or on taxes paid overseas.
    So it's absolutely essential that you look through the lens 
of U.S. competitiveness as you establish provisions within the 
Tax Code.
    Thank you for the question.
    Mr. Khanna. Thank you, Ranking Member.
    I now want to recognize our distinguished chair, Carolyn 
Maloney, who really has prioritized climate change and the 
environment as a focus of the larger committee. And she is so 
committed to this issue that's she's joining us for part of 
this hearing.
    So, Chairwoman Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, for allowing me. 
They were on the floor voting now and I have to be managing a 
bill, but I wanted to be here for your first subcommittee 
hearing, and to congratulate you on being a chairman, and also 
on focusing your first committee hearing on such an important 
topic.
    So, Mr. Chairman, one of the most painful realities of the 
climate crisis is that the path forward is paved with common 
sense, yet we seem incapable of finding our footing.
    As a Nation, all we need do is follow the science and 
fairly weigh the costs and benefits to see that the only viable 
path forward is one that revolutionizes our energy policy, 
builds a sustainable economy, and creates millions of clean 
energy jobs.
    If we fail, the consequences will be catastrophic. But if 
we are successful, the benefits will be tremendous. It's that 
simple.
    Just in my home state of New York, there are hundreds of 
thousands of hospitalizations, emergency room visits, and 
premature deaths that could be avoided. And the economic value 
of these health benefits could exceed $3.5 trillion.
    The U.S. could take action today. Congress and the 
administration have a duty to lead and a responsibly to act 
without delay.
    Ms. Thunberg, you often identify the fact that global 
leaders fail to act rationally when it comes to the climate 
crisis.
    We have the science and the data. We see the climate 
changing before our eyes. We hear what will happen to us and to 
our children if we fail to act. And yet, we still don't act.
    Why do you think that is?
    Ms. Thunberg?
    Mr. Khanna. Ms. Thunberg, are you still with us?
    We've had some technical difficulty. Let me just make sure.
    Ms. Thunberg, I think you're muted. Did you hear the 
chairwoman's question?
    Can we check? I don't think she's hearing it, the audio.
    Ms. Thunberg, can you hear us?
    Mrs. Maloney. Is the problem on our side or on her side?
    Mr. Khanna. I think it's on her side.
    Ms. Thunberg, if you could raise your hand if you can hear 
us.
    No, I don't think she's hearing the feed.
    Chairwoman, apologies. While we get the technical issue 
fixed, I don't know if you had questions for any of the other 
witnesses.
    Mrs. Maloney. My questions were for this extraordinary 
young woman. So I'll just wait.
    Mr. Khanna. Well, she's right there. So we will--let's just 
work with the--the staff is working to try to fix the link as 
we speak.
    Mrs. Maloney. Why don't you go back to another Republican. 
And if we can get hearing to her, then we'll continue.
    Mr. Khanna. OK.
    Mrs. Maloney. Unfortunately, these technicalities sometimes 
take a long time. So maybe we should go----
    Mr. Khanna. I appreciate that.
    And so, let us go on the Republican side. Let me just see 
who is our--OK. So it will be to our--to the Democratic side 
next again, because there's no Republican right now here.
    Do we want to have our vice--is Representative Omar here 
yet? OK. Do we want to have Representative Tlaib, our vice 
chair?
    Why don't we do this? Why don't we take a five-minute 
recess to give everyone the chance to have the tech working, 
because it seems like some of the members haven't worked.
    Chairwoman Maloney, will you be able to join us in five 
minutes if we can get this?
    Mrs. Maloney. Well, we are on the floor voting on D.C. 
Statehood and I may not be able to come back. But if I can, I 
will. I want to hear the comments and testimony and answers to 
the questions on this important hearing.
    Mr. Khanna. We appreciate you joining us. Sorry about the 
technical difficulty. I'm sure Ms. Thunberg will love to answer 
your question. If you can join us, that's great. If not, I'll 
give her the opportunity to respond to what you asked, because 
it was a very important question.
    Mrs. Maloney. Thank you so much.
    Mr. Khanna. Thank you.
    All right. With that, let's take a five-minute recess.
    [Recess.]
    Mr. Khanna. I apologize to our witnesses. And we need to 
make sure this doesn't happen in future hearings and resolve 
any of these technical issues.
    With that, I appreciate--you know, the next person is going 
to be Vice Chair Tlaib.
    I just wanted to give Ms. Thunberg an opportunity to answer 
Chairwoman Maloney's question, because you didn't hear it, the 
last question Chairwoman Maloney said.
    You often identify the fact that global leaders fail to act 
rationally. When it comes to the climate crisis, we have 
science and the data. We see climate changing before our eyes. 
We hear what will happen to us and to our children if we fail 
to act. And yet we still don't act. And I think her question 
was, why are people not acting?
    And so, Ms. Thunberg, if you wanted to answer her question, 
that's our Chairwoman Maloney, and then we will turn to our 
vice chair, Rashida Tlaib.
    Ms. Thunberg, did you have any comments? I think you need 
to unmute.
    Ms. Thunberg. Yes, of course. I mean, we need to be 
realistic. And as long as we are not really treating this 
crisis like a crisis, of course people won't understand that we 
are facing an emergency. We can hammer people with as many 
facts as we want. Unless we really treat it as a crisis, we 
won't understand that it is a crisis.
    And, of course, we criticize politicians, but we do also 
understand that a politician's job is to fulfill the wishes 
from voters. And if people in general are not demanding real 
climate action, then, of course, nothing, no real changes will 
be achieved.
    By that I'm not saying that you don't have any 
responsibility. Of course we humans are social animals, and we 
copy the behavior of people around us. And if our leaders are 
not acting as if we were facing a real emergency, of course, 
then we will not understand that either.
    So it's sort of we are stuck in a hamster wheel, so to 
speak, and someone needs to break that. And the people with the 
most responsibility, of course, have the biggest opportunity to 
do that. And that's why you have such an extremely big 
responsibility.
    Mr. Khanna. Thank you, Ms. Thunberg.
    I now want to recognize our vice chair, who has been 
waiting very patiently--sorry for all the technical errors--
Vice Chair Rashida Tlaib.
    Ms. Tlaib. Thank you so much, Chairman Khanna.
    And thank you so much for our panelists for your patience.
    Happy Earth Day, y'all. I hope we are celebrating Earth Day 
at some point that we've actually been able to have meaningful 
action on climate crisis.
    So I represent the 13th congressional District in Michigan. 
My entire district is in Wayne County, Michigan, which hasn't 
met SO2 standards set by the Clean Air Act in over 15 years. We 
know that 75 percent of all greenhouse gas emissions in the 
United States are caused by burning fossil fuels.
    In Detroit alone, my residents can speak to the real-life 
consequences of our country's unending corporate greed, with 
large fossil fuel companies pushing to extend the life and 
utility of these dirty fuels.
    A few years ago, piles of petroleum coke just showed up on 
the Detroit riverfront and started blowing around in huge 
clouds and coating nearby homes with a thick dust.
    And so I want to share with all of you, because I want you 
all to see for yourselves, what the human impact is when we 
promote this kind of pollution that is killing us.
    And with that, I want to ask our committee to please again 
show the video of the petroleum coke on the Detroit riverfront.
    Mr. Chair, I can continue and we can go back to the video, 
if necessary.
    Mr. Khanna. Why don't you continue, given the technical 
difficulties we've had. And then if we can----
    Ms. Tlaib. Well, it turns out a lot of the clouds, many 
folks didn't really know what it was. We found out it was 
petroleum coke, some call pet coke, a byproduct of the Canadian 
tar sands extraction, which is turned around and sold in the 
United States by companies for a cheap fuel source abroad.
    So when we raised alarms and environmental regulators told 
us it was safe, they actually told me, as a Michigan state 
Representative, don't worry, this isn't toxic, it's not on the 
EPA list.
    I said, how is that possible?
    Why? Because lobbyists and others were able to push and get 
it off of the list.
    But how can a substance that emits far more carbon dioxide 
than coal, y'all, how can that be safe for my residents to 
breathe in?
    So we took matters in our own hands, and we collect samples 
ourselves and have the Ecology Center in Ann Arbor, Michigan, 
to test it independently from our own government. And, nobody's 
surprised, we proved that petroleum coke was toxic and could 
cause cancer.
    This is what happens to countless communities like mine 
around the world when we continue to incentivize the use of 
dirty, toxic fossil fuels.
    And the International Monetary Fund, the IMF, estimates 
that that there are at least $5.2 trillion in fossil fuel 
subsidies each year globally. These greedy corporations have 
even received $15 billion in subsidies from pandemic relief 
packages just alone last year.
    This is so egregious, the egregious amount, especially for 
the industry that has spent decades spreading misinformation 
about climate change and has spent millions lobbying to defeat 
climate legislation here in Congress, all for profits, 
regardless of the human cost on life.
    Last term, I brought this subcommittee to my district for a 
field hearing regarding this kind of pollution. And it was in 
the shadows, the hearing was done in the shadows of Marathon 
Petroleum, and the pollution, again, in the 48217 community 
neighborhood in Detroit, which is the most polluted ZIP Code in 
the state of Michigan.
    So I wanted my fellow members, I wanted my colleagues to 
smell what my residents smell. I wanted them to see exactly 
what it felt like literally to walk out of their house to see 
all the oil refinery pollution and how it really made them 
feel.
    And so I really want to talk to Ms. Hunkler, because you've 
described how oil and gas companies have pressured your 
neighbors, violated the Clean Air Act, and turned you all into 
what you call a frack--turned you into it a fracking refugee.
    How has air and water pollution from fossil fuel extraction 
affected you and your family's health personally? I think it is 
important for people to understand that we are funding the 
killing of people and harming folks in such a profound way.
    And so, Ms. Hunkler, can you please share again how it has 
impacted you personally?
    Ms. Hunkler. Thank you so much. And there are so many ways 
it has affected me personally and my community.
    But the negative health impacts, first, we noticed the 
odors, and then headaches and nausea, body aches and pains, 
mental confusion, you couldn't sleep, rashes, numbness, aches 
and pains.
    And the other part about this is that we had no support, no 
help. You file complaints to the regulators, the Ohio EPA, and 
little action.
    And so, it takes these environmental law groups who 
actually support people. And I had to get legal 
representation--pro bono, thank goodness, or I couldn't have 
afforded it--to file an intent to sue against the compressor 
station to get any action from the Ohio Environmental 
Protection Agency at all.
    So it is not only the health impacts that we experience, 
but there is no--we have no recourse. There is nobody there to 
help us.
    And, fortunately, at some point we had environmental 
organizations that came and helped us with flare camera imaging 
that makes the invisible visible. And that was basically the 
final evidence that we had or the evidence that made the 
regulators take action, because you could see it.
    And, unfortunately, even after years of the compressor 
station being in significant and ongoing violations of the 
Clean Air Act and the Ohio Pollution Control Act, the flare 
images from before any remediation was done and after basically 
shows the same amount of pollution billowing toward my home in 
the valley.
    And the final--I mean, for years I really couldn't live 
safely in my home. I kept the property because I do--kept the 
property because I couldn't really face getting rid of it.
    But the final straw for me putting my property up for sale 
was when there was an application to extend the compressor 
station, and they were going to begin selling water again for 
fracking operations a quarter mile on Slope Creek Reservoir. So 
I knew I had to get out.
    Ms. Tlaib. Thank you.
    Mr. Khanna. Vice Chair, did you have any other--I see your 
time has been expired, but we've been pretty generous, as it 
was with Ranking Member Norman. But do you have one more----
    Ms. Tlaib. No. I know the video--I would like to at least 
show the video. I think it's important.
    Mr. Khanna. Yes.
    Ms. Tlaib. And just my final point.
    It is so incredibly outrageous that our government 
continues to subsidize this kind of nationwide assault on our 
public health. And I just want you all to see the result of us 
funding these kinds of toxicity. It is important for you to 
see--it took Jill to get people to visualize it with flare.
    I'm showing you right now, as an example, right here in the 
backyard of the community I was raised in. This is not normal. 
We must stop it.
    With that, I----
    Mr. Khanna. Let's show the video.
    Ms. Tlaib. Yes, with the video.
    [Video shown.]
    Ms. Tlaib. Thank you, Mr. Chair. I yield.
    Mr. Khanna. Thank you. Thank you very much for your 
leadership.
    Now I want to recognize Representative Herrell for five 
minutes for your questioning and comments.
    Ms. Herrell. Thank you, Mr. Chair. I hope you can hear me 
OK.
    Mr. Khanna. We can.
    Ms. Herrell. Thank you. I really do appreciate this 
hearing. It's very important.
    And just a little reminder. I'm so thankful for the fossil 
fuel industry. Forty-six percent of fossil fuels goes to the 
making of gasoline, but 54 percent is used in so many products 
that we take for granted every day.
    And, in fact, if not for fossil fuels, we wouldn't even be 
having the capability to have these remote calls and talks 
right now because of the plastics, and medical devices, 
eyeglasses, pantyhose, asphalt, roads, shoes, tires, bottles 
for water, iPhones, cosmetics. I could go on and on.
    So I just want us to be very mindful of the products that 
are important to us on a day-to-day--in each of our day-to-day 
lives.
    But with that, I'd like to ask Mr. Macchiarola a couple of 
questions, if he's still on. I'm hoping he still is. I know 
there was a little technical difficulty.
    But in 2019 the oil and gas industry contributed 39 percent 
of New Mexico state budget funding, critical programs such as 
education and infrastructure.
    Can you quantify the industry's nationwide contribution to 
states, the overall number of jobs that your industry supports, 
and the nature of those jobs, if you have those numbers 
available, or maybe your best estimate, please?
    Mr. Macchiarola. Sure. Thanks for your question, 
Congresswoman.
    I think if you look at the gasoline tax, which supports our 
infrastructure, roads and bridges and highways, you're talking 
about $36 billion. You're talking about $14 billion in 
severance taxes across the states that provided for critical 
programs in education and infrastructure and conservation.
    In New Mexico, as you stated, in your home state, half of 
the production, the revenues from production on Federal lands 
go directly to the state budgets. That number was $12 billion 
in 2019 across the Department of the Interior in the United 
States. This is critical to be able to produce, to provide 
state revenues, again, for education programs and other 
critical priorities that Governors have.
    Your question regarding jobs. Our industry supports more 
than 10 million jobs, about seven percent of the U.S. economy.
    And it's also important to note the nature of the jobs 
within our industry. For example, the private sector salary is 
$108,000 in the oil and gas industry. That's almost double the 
average private sector salary.
    We did a study a couple of years ago to compare jobs in the 
oil and gas industry versus other jobs and actually surveyed 
workers who found that they preferred the oil and gas industry 
jobs because of the high wages, because of the benefits, 
because of the ability to advance in your career because these 
are highly skilled jobs.
    So when folks talk about transferring from our industry to 
another industry being something that's very easy, that's just 
not the case.
    So it's really important as we, again, tackle these 
challenges to be able to address the risks of climate change 
and while continuing to meet energy demand, that we keep in 
mind that these jobs are essential to our economy and to the 
American people.
    So thank you for the question.
    Ms. Herrell. Right. And I just think we have to keep in 
mind, it's an important issue for sure. But we're witnessing 
right now the impact of bad Federal policy that this 
administration is having on the industry.
    And what I'm very concerned about is what happens to the 
private market, I mean, what happens to the energy industry as 
a whole if the administration and congressional Democrats 
continue to choose to regulate and tax the industry in every 
which way. I mean, we are already seeing a lot of uncertainty 
as it relates to future drilling operations and production.
    And I know we're almost out of time.
    So what does this look like in terms of for the industry as 
a whole with these bad policies?
    Mr. Macchiarola. It is very concerning, Congresswoman. You 
look at the decision on day one on Keystone, that was 2,000 
immediate jobs, up to the potential for 10,000 jobs on that 
project, many of them good-paying union jobs. You take a look 
at a long-term ban on Federal leasing. That has the potential 
to cost a million jobs.
    So we really need to think very carefully about these 
policies and the potential impact on peoples' livelihoods as we 
move forward.
    Thank you for your question.
    Ms. Herrell. Thank you. And not forget the products that we 
use every single day that help medical, vitamins, all these 
things. So we need to be, I think, thinking of this more 
collectively and not segregate it so.
    But, Mr. Chairman, thank you so much for hosting this. And 
I yield back.
    Mr. Khanna. Thank you.
    Now, without--is Representative Omar here? Is 
Representative Ocasio-Cortez here? We have requests from both 
of them. I see them on the screen, but not present. We're 
checking, just bear with us.
    Thank you for the patience of all our witnesses.
    I know that both Representative Ocasio-Cortez and 
Representative Omar wanted to ask questions.
    Are there any members right now who----
    Mr. Fallon. Yes, sir. Pat Fallon, sir.
    Mr. Khanna. OK. Why don't we have Representative Fallon, 
since you are present and the camera's on. If we could have you 
recognized for five minutes.
    Mr. Fallon. Thank you, Mr. Chairman, members.
    You know, eliminating the tax provisions supporting fossil 
fuels, it is going to save about, if we did that, would be $3.2 
billion. And the renewable incentives we spend right now, about 
almost $10 billion, about three times as much.
    I can remember being a child the 1970's and looking, and I 
was fascinated with geopolitical events. And there was a dream 
that America had, and that was to have energy independence. And 
we had long gas lines and oil embargoes. I was a very small kid 
and I remember how horrible that was.
    We had this dream, and it seemed like a pipe dream, of 
energy independence. And here we are on the cusp of that 
remarkable achievement, and some members, unfortunately, of the 
Democratic Party want to enable and I think, unfortunately and 
unwittingly, embolden our enemies by hamstringing our own 
energy industry.
    The fact of the matter is the United States is now a global 
leader since 2000 in reducing CO2 emissions and in energy 
production, and they are both remarkable achievements. And we 
should do everything we can in our power to facilitate this 
kind of success. The energy industry, let us not forget, 
accounts for this 10 million high-paying jobs.
    And this is also a national security issue. We just had 
former Secretary of State Mike Pompeo come and speak, and he 
talked about how he was empowered as a diplomat in foreign 
relations and it aided him, because so many countries wanted to 
talk to and deal with the United States because of our 
abundance in fossil fuels.
    And there's a moral case, and I think a very compelling 
moral case, to be made for the fossil fuel industry. I mean, 
look at over the last 100-some-odd years the technical 
achievements and advancements we've had.
    And the life expectancy. Life expectancy in the United 
States in 1900 was only 46 years of age, and now it is 79. That 
is a 72 percent increase.
    And the quality of that life that Americans lead now, of 
all races and creeds, that we didn't lead 120 years ago, before 
fossil, really the advent of the fossil fuel industry being as 
productive and efficient as it has become.
    And the cleaner energy--and that's a goal for everyone, 
regardless of party, or really even nationality, in different 
nation-states. If we want cleaner energy we should unleash the 
expertise of the energy industry that have shown and proven 
such innovation.
    And as one of our witnesses said about being judged in 
history, let's just not forget that, unfortunately, with the 
Democratic majority in the House, they are going on a wild 
multi-trillion-dollar deficit spending binge and they are 
saddling future generations with crushing debt and forcing them 
into an untenable financial crisis.
    So we have to be consistent here with what we can do. And I 
think the best way to do that is to support the fossil fuel 
industry and help them--help all of us--with producing more and 
cleaner energy.
    And, Mr. Chairman, I appreciate it. Thank you. And I yield 
back.
    Mr. Khanna. Thank you, Representative Fallon.
    I know that a number of members have been trying to get on 
and having some difficulty. I don't know if Representative 
Ocasio-Cortez or Representative Omar have managed to get on the 
platform.
    Ms. Ocasio-Cortez. Yes. I'm on the platform, Mr. Chairman.
    Mr. Khanna. OK. Wonderful. Thank you.
    Well, I'd like to recognize Representative Ocasio-Cortez 
for her five minutes.
    Ms. Ocasio-Cortez. Of course. Thank you so much, Mr. 
Chairman. And apologies again. This overlap with the vote has 
kind of complicated a lot of our timing here.
    I wanted to dive in a little bit into a couple of the myths 
that we see advanced in climate work overall.
    You know, we've heard a lot of, frankly, fantastical 
stories about what we would do if we actually commit to saving 
our planet.
    We have heard that it is a socialist conspiracy takeover to 
bring down climate emissions below the IPCC report of 1.5 
degrees Celsius. We have heard that it will cause electricity 
bills to skyrocket and prompt families to pay hundreds of 
dollars a month in their normal electricity bills.
    But that doesn't actually compare. While we see these 
statistics and these studies by Republican and conservative and 
pro-lobbyist think tanks develop these theoretical ideas of 
what nightmares could potentially await us if we actually 
stewarded our future, they fail to acknowledge what's happening 
right now.
    Let's take, for example, electricity bills. While there is 
all this fearmongering about if we switch to solar, if we 
commit to wind, that our costs will go up lot, that fails to 
acknowledge what we just saw in February, when Texas had a 
freeze and their fossil fuel infrastructure was so inadequate 
and unprepared, thanks to both climate-denying politicians who 
refuse to invest in infrastructure to adapt to our future and 
acknowledge that we will be experiencing climate events in 
regions that have never experienced such events before, and 
also from industry, who doesn't want to invest and actually 
take the cost of preparing for our future.
    So what does that yield? It yielded $16,000 electricity 
bills, oil and gas electricity bills, from an oil and gas 
infrastructure on everyday people in the state of Texas--
$16,000. That is just the everyday--what we are seeing for 
everyday people.
    But then let's also talk about the justice component, 
because we introduced the Green New Deal earlier this week and 
one of the topics I had brought up is how the intersection of 
justice and the trampling of Native rights and environmental 
racism actually contributes and is a key element of fossil fuel 
infrastructure and climate change.
    I wanted to ask a question of one of our witnesses, Ms. 
Tara Houska.
    We see the Dakota Access Pipeline. We've seen what's 
happening with Line 3. And it seems as though there's this 
pattern of fossil fuel industries and fossil fuel pipelines 
intersecting with Native land and treaty land. Is that a 
coincidence?
    Ms. Houska. I appreciate the question.
    The reality is, is that we are the places that are out of 
sight, out of mind. We are the last places, like I mentioned in 
my testimony, the last places holding the sacred.
    When they want to put through a pipeline or through a mine 
or through some other extracted economy, they don't put that in 
a rich suburb. They don't put that somewhere that is going to 
go through other peoples' land. It goes through ours. Just like 
what Rashida Tlaib was saying, Congresswoman Rashida Tlaib was 
talking about, when it comes to refinement, it goes in Black 
and Brown communities.
    From beginning to end, we are the people that are 
disparately experiencing the impacts of not just the climate 
crisis, but of the actual building of infrastructure. We're the 
sacrifice zones.
    Ms. Ocasio-Cortez. Yes. And, in fact, in the case of the 
Dakota Access Pipeline, it was originally supposed to be 
constructed through a wealthier and Whiter neighborhood. And 
that neighborhood organized and said: Not in our backyard. Put 
it over there.
    And that is what allowed the political--would you say that 
that's what helped contribute to a political environment where 
it was easier to look away, where these fossil fuel pipelines 
were being constructed in communities, where it is easier to 
look away from?
    Ms. Houska. They did their best to try to look away. But 
then there was a movement that was born by LaDonna Allard and 
by the youth runners that ran up to D.C. That woke up the world 
and had the President being questioned in Laos about the Dakota 
Access Pipeline.
    So although they are trying their hardest to look away and 
to not look upon our faces, the faces of the original peoples 
of this land, we are pushing back. Every single pipeline 
infrastructure project that is proposed has Indigenous 
resistance to it.
    That it is reality of the situation. It's not just us and 
Line 3. It is Dakota Access Pipeline, it is Mountain Valley 
Pipeline, it is Save Oak Flat. It's all those different places 
and spaces of people and faces who are trying their best to 
protect our lands.
    These are our sacred lands. We cannot just pick up and 
leave. These are our homes. We were put here by the Federal 
Government. This was the exchange that we made for the country 
that we're in to exist today, and they are coming for those 
last pieces.
    So that's what we're tasked to do. And we have plenty of 
young people who are standing with us and leading this fight 
for their future.
    Ms. Ocasio-Cortez. Thank you so much.
    Mr. Khanna. Thank you. Thank you, Representative Ocasio-
Cortez, and for your leadership earlier this week in the 
reintroduction of the Green New Deal.
    I know we have a number of people who want to ask 
questions, and we've had technical difficulty all morning. So 
we're waiting on Representative Omar and Representative Gomez 
and Representative Porter.
    Let me just ask, is any member here right now who wants to 
be recognized? If not, we will wait for those two members who I 
know have been texting me all morning and have been here.
    Well, while we wait for them, I want to give the 
opportunity, since we don't have any members right now, if 
there are any of our witnesses who want to take this 
opportunity to respond generally to anything that they have 
heard. We also have Representative Krishnamoorthi, who wants to 
ask questions.
    So before he joins, is there anyone who feels that they 
need to clarify anything or respond to any of the questions? 
Just raise your hand.
    Yes, Ms. Hunkler. And then, after your comments, we'll go 
to Congressman Krishnamoorthi.
    Ms. Houska. There's many things I would like to respond to. 
But one thing, I can remember being in these meetings that the 
oil and gas industry were holding for local people to come in. 
I went just so I could be informed about what they were saying, 
what was going on. And they promoted and sold this on energy 
independence.
    And my question is for Representative Fallon.
    How can you explain all the exportations? Wasn't the 
purpose all along to export the oil and gas to higher price 
markets overseas?
    Mr. Khanna. Your question is noted for the record and we'll 
see if he gets back to you.
    I see Representative Krishnamoorthi has joined us, and I 
appreciate him joining us.
    Representative Krishnamoorthi, you're recognized for your 
five minutes.
    Mr. Krishnamoorthi. Thank you, Chairman Khanna.
    It is so nice to be with all of you. And I apologize for 
being late. I was just voting.
    If I could please turn to Ms. Thunberg.
    Thank you so much, Ms. Thunberg, for joining us.
    And thank you, Chairman, for convening her with us.
    Ms. Thunberg, one of the questions that people in my 
district, especially among young people, might have is, if they 
are a young person and they don't know what do in terms of 
fighting climate change, what would you, on this Earth Day--
happy Earth Day, by the way--what would you advise them to do 
in a very practical way?
    Ms. Thunberg. Thank you for the question.
    Well, first of all, I would say that it is not up to them 
to do the work. They are not the ones who are the ones who have 
contributed to this crisis the most and the responsibility 
doesn't fall on their shoulders.
    But, of course, I understand that many want to take action. 
And, of course, everyone has a responsibility.
    So then I would say that--I mean, there are countless ways 
to get involved. I would say maybe the most important one is to 
become aware of the actual crisis that we are facing, to 
educate yourself, to read as much as you can, because once you 
fully understand the crisis, then you will know what you can do 
yourself as well.
    And also to be an active democratic citizen. It is our 
moral duty as citizens of democracies to stand up and to make 
our voices heard.
    Democracy is not just on election day, it is every hour of 
every day of the year. And we need to make our voices heard. 
Because if enough people stand up together and collectively put 
pressure on the people in power, like yourselves, then that 
change will come. Because we young people are the future and 
the people are the ones who have the power, even if it may not 
seem like that all the time.
    Mr. Krishnamoorthi. Ms. Thunberg, thank you for your 
advocacy. I apologize for pronouncing your last name 
incorrectly. My last name is very interesting, so I say that my 
last name gets me on a first name basis with everyone.
    With that being said, you can call me Raja.
    But, Ms. Thunberg, let me ask you this. In all of your 
advocacy efforts, what has surprised you the most in terms of 
either the response that you've received or in any other 
regard?
    Ms. Thunberg. I don't know. Maybe the fact that people are 
actually open for change. I thought that people didn't want 
change and that we were just stuck in our old habits. But after 
having talking to people, both people in the fossil fuel 
industry and people, just everyday people, young people, have 
made me realize that people are actually more open for change 
than we realize.
    So that is something that has surprised me more than I 
would have thought.
    Mr. Krishnamoorthi. You know, a lot of people in our 
country, in the United States, actually have jobs in the fossil 
fuel industries, whether it is the oil industry or the natural 
gas industry. And a lot of those workers want to know what the 
future holds for them, given that we do have to fight manmade 
climate change and we do have to transition to a renewable 
energy economy.
    What would you say to them, because they obviously are 
fearful about the future and taking care of their families and 
having a job that puts food on the stable and so forth?
    Ms. Thunberg. Of course. And who can blame them? I mean, 
everyone--that's natural, that we care for ourselves and that 
we want to be able to feed our families. So, of course, this is 
definitely not their fault.
    [Inaudible] they cannot be left behind. That is among the 
top priorities, that we actually leave no one behind.
    And that's what the climate crisis is all about. That's 
what climate justice means. It means justice for the people who 
are most affected, but it also means that no one is left 
behind.
    And, of course, I'm not a politician, I'm not even from the 
U.S., so I can't speak exactly on that. But that's basically 
all I can say.
    And people think that we climate and environmental and 
human rights activists are against people in the fossil fuel 
industry, but that couldn't be more wrong. I mean, we are 
fighting for everyone.
    Climate justice is social justice. We can't achieve climate 
justice without social justice. So that's what it all comes 
down to. That's why we are doing this, because we care about 
human lives.
    Mr. Krishnamoorthi. Thank you so much. My time has expired. 
But thank you for your service.
    Thank you, Chairman.
    Mr. Khanna. Thank you, Representative Krishnamoorthi. Thank 
you for your service and leadership.
    I now see Representative Jimmy Gomez, who has been 
patiently almost since the beginning of the hearing with us.
    And I appreciate your coming back after votes and having 
your chance to make a statement and ask any questions.
    Mr. Gomez. No, thank you, Mr. Chairman. It was only about a 
three-mile walk round trip after I was done walking to vote 
three times. But I need the exercise.
    The reason why I was so interested in this hearing is 
because I'm not only on the Oversight Committee, but I'm also 
on the Ways and Means Committee, the taxation committee.
    And it's interesting, because the title of this hearing is 
about ``The Role of Fossil Fuel Subsidies in Preventing Action 
on the Climate Crisis.'' Why is that? It is because a lot of 
people assumed from the very beginning that oil and gas and 
coal is cheaper because the market determines that it is 
cheaper.
    But what we've learned is that they have a lot of unfair 
advantages because of the Tax Code, because of the Tax Code and 
how it was developed over 100 years, and how that is not the 
case and how that crowds out new technologies when it comes to 
getting different energy from renewable sources, from wind and 
solar. And it prevents people from seeing the true cost of oil 
and gas and thereby being able to price it accordingly in the 
marketplace against other sources of energy.
    That is the kicker, is that the public believes that this 
is just the naturally cheap energy source compared to 
everything else. But we know that that's not the case.
    Mr. Aldy, I read some of your testimony. I thought it was 
brilliant.
    Quick question. Who is benefiting the most from fossil fuel 
subsidies and who is made worse off?
    Mr. Aldy. Thank you for the question, Congressman Gomez. It 
is great to see you and it is fantastic to see an alum of our 
Public Policy Program at the Kennedy School representing his 
constituents here in Congress.
    I think the reason why I first come to the conclusion that 
these fossil fuel subsidies, and especially the targeted tax 
expenditures in our Tax Code for oil and gas and coal, 
represent a failure of government is because we're actually 
spending money that's basically just increasing the profits for 
these companies. The impact on production is truly negligible.
    And if we really want to be thinking about how we use the 
Tax Code to support investment, these are not the way to do 
that. And it's all the more important because if we want to 
favor certain kinds of investment we have to think, what's the 
return to the American public for doing this?
    The value for doing this for renewables, and why I think it 
is an incredible distraction to say renewables get more 
subsidies than fossil fuels, renewables deliver this incredible 
benefit of not just providing energy, but doing so in a way 
that doesn't actually harm our health, creating premature 
mortality, creating the risk of cancer for people, especially 
those who are disproportionately burdened by this exposure 
because they live close to these facilities. They are the ones 
who are bearing those great losses.
    And, in fact, when we think about the true cost to society, 
the fuels look cheap because we're not accounting for the fact 
that we are imposing significant public health costs and 
significant costs in changing the climate, which means damages 
to our infrastructure in the future, the risk of dying 
prematurely in the future, the risk of disastrous storms and 
forest fires out West.
    Those are all the costs associated with this. But the 
benefits are really going to the shareholders of these 
companies. It's not actually increasing economic activity.
    Mr. Gomez. And how is it compared? Compared to energy tax 
provisions for renewable energy, how are subsidies for oil and 
gas treated differently?
    Mr. Aldy. Well, I think a key thing to recognize here is 
not just do the comparison between oil and gas and renewables, 
but to think about, just in general, how do we think about 
supporting investment in the economy? And there have been 
favorable rules for oil and gas and coal for more than 100 
years.
    And what that does is, is it tilts the playing field. It is 
an unfair playing field. So if you wanted to invest in building 
a new manufacturing plant or building a new retail store, you 
actually face a different set of rules than they do in this 
industry.
    And I think the key thing is, is that when we think about 
what makes good public policies, it is not actually delivering 
something that makes us better off.
    It's OK, I think, in fact quite encouraging, that until we 
have a more robust approach to addressing climate change, to 
have subsidies for renewables to lower their cost of 
investment. It actually enjoys dramatic improvements in the 
cost so that they now actually need fewer subsidies to be 
rolled out more and more extensively across the country.
    That's been great driving down the cost of that technology. 
That's because they get something that the market doesn't 
recognize right now, which is the value of that clean air and 
the value of tackling climate change.
    Mr. Gomez. Mr. Chairman, can I have 30 seconds?
    Mr. Khanna. Absolutely, absolutely.
    Mr. Gomez. This is one of the things that I want people to 
understand, that there will be arguments on the other side that 
the Tax Code, everybody has access to this. But when you really 
look at it, they are the ones that have the biggest advantage 
because of the Tax Code. And it is not fair.
    It's like the estate tax, right, or increasing the estate 
tax limit to $11 million per person. Who benefits from that? 
Not the poor person that would never be impacted, but the 
extremely wealthy. And people think the Tax Code is neutral. 
It's not neutral in any sense of the imagination.
    So, in essence, we are hindering the transition to a clean 
energy future because we are subsidizing an energy source that 
is dirtier, that doesn't take into account the negative 
externalities, the costs that are imposed. It's an unfair 
playing field. And we've got to level that playing field so 
that the transition to clean renewables happens quicker and 
happens within the next 10 years.
    With that, Mr. Chairman, I yield back.
    Mr. Khanna. Thank you, Representative Gomez. And thank you 
for your leadership and all the walks to make it to the 
hearing.
    I know we have Representative Bush who is still trying to 
get on. And I know we've had some technical difficulty.
    Representative Bush, have you managed to get on or--OK.
    Well, let me say this, because if we go back to our 
witnesses and while we're waiting for one or two more members, 
and I want to recognize any of the witnesses if they have 
anything they want to respond to or clarify. Just raise your 
hand and I'll call on you. No obligation to.
    Mr. Erickson, and then Ms. Houska after that.
    So why don't we have Ms. Erickson, Ms. Houska, and then----
    Ms. Bush. Chairman Khanna, thank you for convening this 
hearing today.
    And thank you, Madam Chair.
    And we applaud Congressman Khanna and Congresswoman Omar 
and Senator Sanders for their work on this issue among so many 
others.
    I also want to thank our witnesses for joining us today. 
And I want to especially thank Ms. Houska, our sister who has 
been at the forefront of fighting Line 3 for all of us, 
especially those of us downriver on the Mississippi. We are so 
grateful for you.
    Right now the fossil fuel industry faces little to no 
consequences for the lethal pollution they have been creating 
for decades.
    This is no accident. The fossil fuel industry has played a 
central role in diverting climate research and action even as 
they contaminate predominantly Black and Brown communities.
    There will be consequences. And at first, bare minimum step 
toward accountability is ending our government's financial 
support of fossil fuels.
    My community in St. Louis is home to the headquarters of 
two of the most egregious corporate polluters in the world, 
Peabody Coal and Arch Resources. Peabody and Arch are the 
largest coal companies in the United States, the most polluting 
Nation in the history of the world.
    Companies like these have burdened my community with 
pollution that makes our air and water dirtier, while also 
dangerously warming our atmosphere in our cities.
    The last thing the government should be doing is uplifting 
the grievous impacts of coal and oil on Black lives.
    A new report from Greenpeace and the Gulf Coast Center for 
Law & Policy and the Movement for Black Lives found further 
evidence that extracting and burning fossil fuels 
disproportionately harms Black, Brown, and Indigenous and poor 
communities.
    The report found that Black Americans have 1.5 times the 
exposure to particulate matter compared to the overall 
population.
    What is that? It found that natural gas has increased the 
risk of cancer for 1 million--1 million--Black Americans.
    Natural gas has also contributed to 138,000 asthma attacks, 
which cause over 100,000 lost school days for Black children, 
and we know that's unacceptable.
    Ms. Houska, could you tell us more about how the fossil 
fuel industry's attack on your community in Minnesota could 
affect downriver communities like St. Louis?
    Ms. Houska. Yes. And I would point out that Minnesota is 
also the ground zero of racial justice right now, right? Like, 
we just had this moment where Derek Chauvin is actually going 
to go to prison for murdering George Floyd. That's happening in 
southern Minnesota, using the same police forces that are over-
policing and surveilling and harassing Indigenous people in the 
north.
    Our struggles are intertwined. We are interconnected. 
Racial justice is climate justice. So when it comes to the 
disparate impacts felt by this industry, I discussed it 
earlier, every single stopping point, whether it is the point 
of extraction, the transportation of the fuel, or whatever it 
happens to be, and the endpoint, when it is refined and when it 
is shipped out somewhere else, it is always Black and Brown 
folks and poor folks who are dealing with these impacts 
disparately over everyone else. We are the ones that are 
getting cancer. We are the ones that are forgotten. We're the 
sacrifice zones.
    It's shocking to me to hear this committee continue to say 
this is about jobs, this is about jobs. What about the jobs in 
our communities? What about the economies that we have as 
people? What about the economies of wild rice that have existed 
since before the United States? What about the economies of all 
of the workers who they keep talking about, our workers, our 
workers.
    I talk with these people. These are my family. These are my 
friends. I'm from those places. You don't think that we want to 
stop extracting from and destroying the natural world that we 
live in? Because they get to benefit from that, but we are the 
ones that have to actually deal with the impacts after they 
leave.
    Enbridge is not going to be here when tar sands are in our 
rivers. We are the ones that have to deal with it. Just like in 
Kalamazoo, Michigan, when that spill happened, they are the 
ones that have to deal with that.
    I know that workers want better jobs and we want jobs that 
don't require us to destroy the world around us. And I know 
that we can do better when it comes to racial justice.
    Ms. Bush. Yes. Thank you, Ms. Houska. Thank you.
    We must address these historic injustices by ending our 
reliance on fossil fuels. We must end fossil fuel extraction 
and infrastructure. We also need to direct massive investments 
into renewable energy and climate infrastructure.
    Just this week, I put forward a bill that would invest $1 
trillion in the Green New Deal for cities, towns, counties, and 
Tribes. Ending fossil fuel subsidies is just the beginning.
    Ms. Thunberg, we need way more action to protect frontline 
Black, Brown, and Indigenous communities from the causes that 
impact climate change.
    What action would you take, if you were leading the richest 
country in the world right now and the one most historically 
responsible for the climate crisis?
    Ms. Thunberg. Well, that's the big question. And, of 
course, I couldn't really do anything because that would be 
undemocratic, and we have to, of course, protect democracy at 
all costs.
    So what I would do is to raise awareness so that people 
would understand why these changes would be necessary, why we 
need to take drastic climate action. That would maybe be the 
thing I would do first, because you cannot, of course, not take 
action unless you have support from the general public.
    Ms. Bush. Absolutely. And I know that very well.
    Thank you. And I yield back.
    Mr. Khanna. Thank you, Representative Bush, for your 
leadership.
    Without objection, Katie Porter, the Member from 
California, shall be permitted to join the subcommittee and be 
recognized for questioning the witnesses.
    Thank you for joining us, Representative Porter. The floor 
is yours.
    Ms. Porter. Thank you very much.
    Mr. Macchiarola, this isn't your first rodeo. You've come 
to testify before in Congress and you've worked on these issues 
for a long time.
    Before you were working for the American Petroleum 
Institute, you were staff director for the Senate Committee on 
Energy and Natural Resources. Is that correct?
    Mr. Macchiarola. Yes.
    Ms. Porter. And that committee has jurisdiction over the 
issues that you now lobby on.
    And you get paid a much better salary in the private sector 
than in the government, which is very typical. And your 
companies, they are part of capitalism. They invest, they take 
risk, they earn money, they share that money with shareholders.
    But my question is, why should the taxpayers have to pay 
for any of that? Why should taxpayers have to shell out for 
your salary and for the costs of pollution? Why shouldn't the 
companies bear that themselves?
    Let's assume just for a minute that big oil companies are 
bad actors in a capitalist system. Even if I'm OK with that, 
why do I have to pay? Why do taxpayers have to subsidize you 
and your polluting clients?
    Mr. Macchiarola. Thanks for your question, Congresswoman.
    So taxpayers paid my salary when I worked for the 
government from 2004 through 2013. Since then, after leaving 
public service, I've worked in the private sector in a range of 
different roles, and taxpayers have not funded my salary----
    Ms. Porter. Reclaiming my time, Mr. Macchiarola.
    Mr. Macchiarola [continuing]. Since that time. Thank you.
    Ms. Porter. But you are aware that the fossil fuel industry 
receives--it received $30 billion in Federal subsidies in 2020, 
last year. You don't think they use any of that Federal money 
to pay your salary to come lobby us to keep the rules in their 
favor so that you can come back to lobby us? Why do I have to 
pay for you to shill for oil companies? Why do we, as 
taxpayers, have to pay subsidies to the oil and gas industry?
    Mr. Macchiarola. Thank you for your question, 
Congresswoman. So the Federal leasing for oil and gas 
development produces a significant amount of funding for the 
Treasury. In fact----
    Ms. Porter. Reclaiming my time, Mr. Macchiarola.
    Mr. Macchiarola. I'd like to----
    Ms. Porter. Mr. Macchiarola, excuse me, but the evidence is 
clear, we subsidize--we taxpayers subsidize the oil and gas 
industry. We did it this year alone in the middle of the 
world's greatest pandemic, $15.2 billion in direct pandemic 
relief alone to fossil fuel companies. And the fossil fuel 
industry turned around in 2020 and spent $139 million on 
political donations and $111 million lobbying.
    Look, I get it. You drill in the Arctic Refuge. You take 
out oil and gas, and you poison the planet. Bad enough, but why 
should taxpayers have to subsidize that activity? It's a bridge 
too far, Mr. Macchiarola. Not with my tax dollars. You want to 
pollute, you want to hurt the wildlife, you want to destroy our 
planet, do it on your company's own dime. The subsidies here 
have to stop.
    Ms. Thunberg----
    Mr. Macchiarola. Thanks for your question. Thank you for 
your question, Congresswoman.
    Ms. Porter. That's not a question, Mr. Macchiarola. That's 
a fact.
    Ms. Thunberg, I want to turn to you. You were----
    Mr. Macchiarola. I'd like to respond----
    Ms. Porter. Reclaiming my time.
    Mr. Macchiarola [continuing]. To the question about 
stabilization because it's a very important point that you 
made, Congresswoman. During the period of time where the 
economy was shedding 20 million jobs, and both Congress and the 
administration, through fiscal policy and monetary policy, came 
in and stabilized the economy through bipartisan efforts----
    Ms. Porter. Reclaiming my time, Mr. Macchiarola. There's 
nothing magical about bipartisan. The vast majority of your 
political contributions are to Republicans, and during that 
period from March to August, when you were receiving--the oil 
companies were receiving $15.2 billion in direct relief, you 
laid off 107,000 workers from that March to August.
    Now I want to talk to Ms. Thunberg for a minute.
    Mr. Macchiarola. You referenced my congressional 
experience. I actually have found that there is something 
magical about bipartisan. It's something that this Congress 
could actually----
    Ms. Porter. Reclaiming my time, Mr. Macchiarola.
    Mr. Macchiarola [continuing]. Could actually--could 
actually----
    Ms. Porter. Could I have my time back?
    Mr. Macchiarola [continuing]. Take a lesson from 
bipartisanship and to be able to move forward on some of these 
important issues, Congresswoman. Thank you for your question.
    Ms. Porter. Ms. Thunberg, I just wanted to ask you one 
question. I have a nine-year-old daughter--I have three kids--
and I told my nine-year-old daughter that I was going to be 
speaking with you, and I said, what do you think about climate 
change? And she said, ``The Earth is on fire, and we're all 
going to die soon.'' And I asked her how that made her feel, 
and she said it made her feel angry.
    What should I tell my daughter? And how should I help her 
and the youngest generation bear the emotional toll of the 
actions that fossil fuel companies are taking to destroy our 
planet?
    Ms. Thunberg. Well, it's--thank you for the question. 
That's a big, big question, and I know that there are many 
young people who feel angry and sad because of all the things 
that some people are doing to this planet and to our futures 
and to the most affected people, and that's very 
understandable. It would be strange if we didn't feel that way 
because then we wouldn't have any empathy.
    So I would--but, of course, there is still much hope, and 
if we choose to take action, we can do this and there--I mean, 
there's unlimited things that we can do, and if we choose to 
act together, there are no limits to what we can accomplish. 
And always the best medication against anger and anxiety is to 
take action yourself. So that's what I would tell her, to take 
action herself, because that will make her feel so much better. 
That's what it did to me, at least, and so many others.

    Ms. Porter. Thank you so much.

    Mr. Chair, I yield back.

    Mr. Khanna. Thank you. Thank you, Representative Porter for 
joining us on this committee and your always incisive 
questions.

    I think that brings our committee to an end. I did want 
to--because before you joined, Representative Porter, I think 
Mr. Erickson had one comment. I want to give him that 
opportunity, and then we will end this hearing.

    Mr. Erickson?

    Mr. Erickson. Thank you, Chairman Khanna.

    I wanted to address this question of to what degree 
subsidies to oil and gas actually lead to new investment. It's 
been a question raised by both Mr. Aldy and Mr. Macchiarola.

    I just wanted to have an opportunity to just say that is 
the exact area of my research, and what we found is that over 
96 percent of the value of the subsidies in the Tax Code goes 
to--goes directly to profits over and above the minimum 
investment hurdle rates that would be required to actually make 
those new investments happening.

    So that very much supports the statement that Mr. Aldy was 
making about how subsidies don't actually lead to very much new 
investment or jobs at all, and that instead, the subsidies go 
to profits much more along the lines of what Congresswoman 
Porter was describing. Thank you.

    Mr. Khanna. Thank you, Mr. Erickson.

    Well, I want to thank all our panelists, first of all, for 
your remarks, for staying with us, for the duration and through 
the votes and the technical difficulty.

    And I want to really thank my colleagues, so many of them 
joining this subcommittee hearing, which, as you can tell, 
signals their interest and commitment and passion in ending 
fossil fuel subsidies and making sure that we do that this 
infrastructure bill.

    With that, without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair which will be 
forwarded to the witnesses for their responses.

    I ask our witnesses to please respond as promptly as you 
are able. Thank you again for your expertise, testimony, and 
time. This meeting is now adjourned.

    [Whereupon, at 12:42 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
